No.

k^.

In the Supreme Court of the United States

FILED
SEP 2 7 2021
Mary Jill AUgever, Petitioner
v.
City of Cincinnati, et.al, Respondents

ON PETITION FOR A WRIT
OF CERTIORARI TO
THE UNITED STATES COURT OF
APPEALS FROM THE SOUTHERN DISTRICT
OF OHIO, THE SIXTH CIRCUIT
NO. 20-3827
PETITION FOR A WRIT OF CERTIORARI

Petitioner Name
Mary Jill Allgeyer, Pro Se
1129 Timbervalley Court
Cincinnati Ohio 45233
(513) 368-3665

OFFICE OF THE CLERK
SUPREME COURT 11

L

QUESTIONS PRESENTED

(1)

If an employee/plaintiff is a member of a racial majority (white
female) is she legally considered to be viewed as an unprotected class,
stated below, in my reverse discrimination case, by the court?
Court of Appeals for the Sixth Circuit Filed June 28, 2021 Case No. 20-3827
Pg. 6 “Where the plaintiff is a member of the racial majority—and therefore
not a member of a protected class. ”

(2)

If an appellant has direct evidence, is it necessary to prove defendants’
reverse discrimination by using Prima Facie

(3)

Ledbetter v. Gilley, 385 F.3d 683,69 (6th Cir.2004). Lilly Ledbetter
Fair Pay 2009 Act was a comparison of wages of female to male.
When the Plaintiff is white female and works the same position in the
same offices making $20,000-$30,000 less annually than a black
female employee’ counterpart who is similarly situated, will the court
apply my discrimination to the Lilly Ledbetter Fair Pay Act of 2009?
The disparity is the same.

(4)

Reverse Discrimination: Does the court recognize reverse
discrimination performed by local government when Minority and
Male leadership has workplace power over older white female?

(5)

Will the Supreme Court perform a review of the District Magistrate’s
performance with not abiding with Magistrates duties Rule 73.
Magistrate Judges: Trial by Consent; Appeal (a) Trial by Consent. )
I issued non-consent for Magistrate Bowman, twice on forms during
scheduling and was never approached to fill out a consent form.
i.

This Case is a Case of Public or Great general Interest and asks substantial
constitutional questions.
LIST OF PARTIES
HI

All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

Defendants
City of Cincinnati, 1990-20X8
801 Plum Street
Cincinnati, OH 45202
Georgetta Kelly, Director Service 09/08/14
Human Resource
Service 02/21/12-11/3/2017

Harry Black, City Manager
8, 04/21/18
Represented by:
Lauren Credit! Mai (0089498)
Sr. Assistant City Solicitor
Room 214 City Hall
801 Plum Street
Cincinnati. Ohio 45202
Telephone: (513) 352-4703
Email: lauren.credittmai@cincinnati-oh.gov
William C. Hicks (0068565)
Sr. Assistant City Solicitor
Room 214, City Hall
801 Plum Street
Cincinnati, Ohio 45202
Telephone: (513) 352-3329
Email: William.hicks@cincinnati-oh.gov
Petitioner
Mary Jill Allgeyer, Pro Se
12/06/2016-current
City Employee April 1990-July 1993 fired
Rehired October 1, 2000-August 1, 2018
1129 Timbervalley Court
Cincinnati, Ohio 45233
(513) 368-3665 mjallgeyer@gmail.com
n.

Corporate Disclosure Statement
To my knowledge, no one at the time of these proceedings was in business relationships
with any institutions
TABLE OF CONTENTS
iv&v

INDEX TO APPENDIXES
OPINIONS

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

PROPOSITION OF LAW

9

STATEMENT OF CASE

4

REASONS FOR GRANTING THE WRIT

10

CONCLUSION

13

PROOF OF SERVICE

14

ui.

INDEX TO APPENDIXES
APPENDIXA.

United, States Court of Appeals for the Sixth Circuit
Order Filed June 28, 2021. Case No. 20-3827. On appeal
from United States District Court Case No. l:16-cv01128 Order Before SUHRHEINRICH, WHITE and
BUSH Circuit Judges that we affirm the district court’s
judgment.
Not Recommended for Publication.

APPENDIXB

The United States District Court for the Southern
District of Ohio Case No.: l:16-cv-01128, 05/13/2020,
Doc 37 “Memorandum Opinion and Order: The
undersigned forewarns Plaintiff that any additional
motions will be denied on the same procedural grounds
unless district judge rejects the pending R&R.
III. Conclusion and Order
Accordingly, IT IS ORDERED THAT Plaintiffs motion
for leave of court (Doc. 34), herein construed as a motion
seeking leave to file an untimely motion for summary
judgment, is DENIED ” Stephanie K. Bowman,
United States Magistrate Judge.
New evidence was omitted.
United States District Court for the Southern District of
Ohio Complaint filed December 6, 2016. Case No: 1:16cv-01128
Final Ruling
Judge Matthew W. McFarland, Docket 39 filed
07/01/2021: “Order overruling objections (Doc 31, 38),
Adopting Report and Recommendation (Doc. 30 filed
04/01/19) Granting Motion for Summary Judgment
(Doc. 23 filed 01/04/19) and terminating case.”
Case No.: l:16-cv-01128, Doc. 40 Filed: 07/01/20
IT IS ORDERED AND ADOPTED in its entirety and
that the Motion for Summary Judgment is GRANTED
July 1, 2020.
JUDGMENT IN A CIVIL CASE
Jury Verdict. This action came before the Court for a trial by
jury. The issues have been tried and the jury has rendered its
verdict.
iv.

X

Decision by Court. This action came to trial or hearing
before the Court. The issues have been tried or heard and
IT IS ORDERED AND ADJUDGED: That the Report and
Recommendation is ADOPTED in its entirety and that the
Motion for Summary Judgment is GRANTED.
July 1, 2020.
Richard W. Nagel, Clerk of Court
By:/s/ Kellie A. Fields
Deputy Clerk
k Plaintiff, see no publication

v.

TABLE OF AUTHORITIES
McDonnell Douglas Corp. v. Green, 411 U. S. 792 (1973).
Fed. Rule Civ. Proc. 8(a)(2).” 792........................................

5

Trans World Airlines, Inc. v. Thurston, 469 U. S. Ill

5

Civil Rights Commission
City of Cincinnati Human Resource Personnel Policy & Procedures
42 U.S. Code § 2000e

42 USC 2000e-5: Enforcement provisions
[USC02] 42 USC 2000e-5: Enforcement provisions
https://uscode.house.gov/view.xhtml?req=granuleid:...
§2000e-5. Enforcement provisions (a) Power of Commission to prevent unlawful
employment practices. The Commission is empowered, as hereinafter provided, to
prevent any person from engaging in any unlawful employment practice as set forth
in section 2000e-2 or 2000e-3 of this title.
IN THE MATTER OF CASES REFERRED TO UNITED STATES MAGISTRATE
JUDGE STEPHANIE K. BOWMAN GENERAL STANDING ORDER ON CIVIL
PROCEDURES “prior agreement to consent to the jurisdiction of the Magistrate
Judge...........................................................................................................................

i

Ohio’s Public Record Requests Act 149.43

7

Civil Service Rules not followed:
Section 10 Unclassified Service requirements
Rule 4 Section 1. Classification Plan

B

O.R.C. 3313.6027. (A)
28 U.S.C. §636(c).......

6

28 U.S.C. $636(c)(5r.

6

US Department of Labor 77A

E

O.R.C. 124,04 (E)

E

Classifications and Compensation rule 4, section 5, (e) (h); Civil Service Rule 4
vt.

R.C. 4112.02 §1&2 Unlawful Discriminatory practices
The Ohio Civil Rights Commission enforces Ohio’s laws against Discrimination. Its authority
is derived from Ohio Revised Code, Chapter 4112 and Ohio Administrative Code, Chapter 4112.
BE IT ENACTED BY THE GENERAL ASSEMBLY OF THE STATE OF OHIO: Section 1.
That sections 3314.03 and 3326.11 be amended and sections 3313.6027 and 4113.35 of the
Revised Code be enacted to read as follows: Sec. 3313.6027. (A) As used in this section: (1)

"Divisive concepts" means the concepts that: (a) One nationality, color, ethnicity, race, or sex is
inherently superior to another nationality, color, ethnicity, race, or sex.

“AFFIRMING the 14th Amendment of the Constitution that we’re equal
under the law.”. Sec. 4113.35. (A) As used in this section: (1) "Divisive concept" has
the same meaning as in section 3313.6027 of the Revised Code. (2) "State agency"
means every organized body, office, or agency established by the laws of the state
for the exercise of any function of state government and includes a state institution
of higher education, the public employees retirement system, the Ohio police and
fire pension fund, the state teachers retirement system, the school employees retirement
system, and the state highway patrol retirement system.............................................................. 2
(B)(1) No state agency shall offer teaching, instruction, or training on divisive concepts to any
employees, contractors, staff members, or any other individual or group or require them to adopt
or believe in divisive concepts.
Proposition 209
State and Federal Constitutions Require Equal Protection. The state and federal
Constitutions’ provide all people equal protection..................................................

Vll.

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
1^4 is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ______________________
^jCNo petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

OPINIONS BELOW
Justice Thomas delivered the opinion of the Court
U.S. Senator Mike Braun states, ‘To claim Qualified immunity under the Reforming
Qualified Immunity Act,.........................................................................................................
Ruth Bader Ginsburg opinions:....... ..........................................................
History Stories updated May 30,2018 at https://www.histoiy.com/news/ruth-baderginsburgs-landmark-opinions-womens-rights-supreme-court
"In an amicus brief, Ginsburg used the statute to argue that gender-based discrimination
hurt men, too. "Why," she asked the Court during oral arguments, "did the framers of the
14th Amendment regard racial [discrimination] as odious? Because a person's skin color
bears no necessary relationship to ability. Similarly...a person's sex bears no necessary
relationship to ability.
JURISDICTION
EEOC filed September 22, 2016, Cincinnati Ohio
United States District Court for the Southern District of Ohio Western
Division 1:16-CV-1128 filed December 6, 2016; Final Ruling July 1, 2020.
United States Court of Appeals, sixth circuit Case No. 20-3827 filed August 4, 2020
Decision June 28, 2021.
The Supreme Court of the United States filed September 27, 2021.

1.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The fourteenth amendment to the United States Constitution Section 1
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
Title VII of the Civil Rights Act of 1964 made it unlawful for an employer with 15 or
more employees to discriminate against an employee or prospective employee
because of their race/color, national origin, sex, or religion. This type of
discrimination can take two forms: disparate treatment or disparate impact.
Disparate Treatment discrimination occurs when an employer intentionally
discriminates against an individual because they possess one of the protected
characteristic. The employer’s motive for taking the adverse employment action
against the employee or prospective employee is central to a determination of fault.
S.I81 - Lilly Ledbetter Fair Pay Act of 2009 111th ...
https://www.congress.gov/bill/lllth-congress/senate-bill/181
Jan 08, 2009 Lilly Ledbetter Fair Pay Act of 2009 - Amends the Civil Rights Act of
1964 to declare that an unlawful employment practice occurs when: (1) a
discriminatory compensation decision or other practice is adopted; (2) an individual
becomes subject to the decision or practice; or (3) an individual is affected by
application of the decision or practice, including each time wages, benefits, or other
practice, and for other purposes.
SEC. 4. DISCRIMINATION IN COMPENSATION BECAUSE OF AGE. Section
7(d) of the Age Discrimination in Employment Act of 1967 (29 U.S.C. 626(d)) is
amended-"(3) For purposes of this section, an unlawful practice occurs, with respect to
discrimination in compensation in violation of this Act, when a
discriminatory compensation decision or other practice is adopted, when a
person becomes subject to a discriminatory compensation decision or other
2.

practice, or when a person is affected by application of a discriminatory
compensation decision or other practice, including each time wages, benefits,
or other compensation is paid, resulting in whole or in part from such a
decision or other practice.".
UNCLASSIFIED POSITIONS 124.11
The City has many unclassified postions that do not follow ORC rules. O.R.C.
Section 10 Unclassified Service requirements Rule 4 Section Classification,
departments and chiefs of fire departments of cities or civil service townships from
the competitive classified service.
(4) The members of county or district licensing boards or commissions and boards of
revision, and not more than five deputy county auditors;
(5) All officers and employees elected or appointed by either or both branches of the
general assembly, and employees of the city legislative authority engaged in
legislative duties;
(6) All commissioned, warrant, and noncommissioned officers and enlisted persons
in the Ohio organized militia, including military appointees in the adjutant
general’s department;
(7)(a) All presidents, business managers, administrative officers, superintendents,
assistant superintendents, principals, deans, assistant deans, instructors, teachers,
and such employees as are engaged in educational or research duties connected
with the public school system, colleges, and universities, as determined by the
governing body of the public school system, colleges, and universities;
(b) The library staff of any library in the state supported wholly or in part at public
expense.
(8) Four clerical and administrative support employees for each of the elective state
officers, four clerical and administrative support employees for each board of county
commissioners and one such employee for each county commissioner, and four
clerical and administrative support employees for other elective officers and each of
the principal appointive executive officers, boards, or commissions, except for civil
service commissions, that are authorized to appoint such clerical and
administrative support employees; ETC. https://codes.ohio.gov/ohio-revisedcode/section-124.11

A

STATEMENT OF THE CASE
RESPONSE (1)

The Appellant Court before: Suhrheinrich, White, and Bush,

Circuit Judges state Case: 20-3827 Document 32-2 filed 06/28/21 Page 6 that for
“Prima Facie was (1) the plaintiff was a member of a protected class, (2) the plaintiff
was qualified for the job, (3) the plaintiff suffered an adverse employment decision,
and (4) the plaintiff was replaced by a person outside the protected class or treated
differently from similarly situated non-protected employees. White v. Baxter
Healthcare Corp., 533 f.3d 381, 391 (6th Cer. 2008). 'Where the Plaintiff is a
member of the racial majority—and therefore not of a protected class—and
alleges discrimination, then the first and fourth factors change, so that the plaintiff
must demonstrate background circumstances supporting the suspicion that the
employer discriminates against the majority, and the plaintiff must also
demonstrate being treated differently from similarly situated employees of a
different race. Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 6 of 26
PAGEID #: 9417.”
When applying employer discriminates against the majority, a fact that is
noted above, as a Pro Se petitioner, I may represent only myself, but my case is with
the court that discriminates against the majority. Suspicions about discrimination
of the majority are as follows: Taking promotional tests for years with the same
white female employees hoping for promotions and, afterwards, looking at eligible
list, it is easy to ascertain who will be certified for promotions by HR’s new policies
and procedures to certification. HR discriminated against me for years, as noted
4.

with direct evidence in this lawsuit, as proof of employer discriminates against
majority and in the court, I am majority.
RESPONSE (2)

Direct Evidence:

"The 5framework does not apply where, for example, a plaintiff is able to produce direct evidence of
discrimination. See Trans World Airlines, Inc. v. Thurston, 469 U. S. Ill, 121."

Justice Thomas delivered the opinion of the Court as follows:
’’This case presents the question whether a complaint in an employment discrimination lawsuit
must contain specific facts establishing a prima facie case of discrimination under the framework set
forth by this Court in McDonnell Douglas Corp. v. Green, 411 U. S. 792 (1973). We hold that an
employment discrimination complaint need not include such facts and instead must contain only “a
short and plain statement of the claim showing that the pleader is entitled to relief.” Fed. Rule Civ.
Proc. 8(a)(2).”

Although I submitted pages of minority in similar situations of positions Doc 27, the
defense ignored direct evidence and continued with with Prima Facie proof. Prima
Facie was used by defendants and Magistrate against plaintiff in motions and
Summary Judgment in my case which is not necessary with direct evidence.
“The McDonnell Douglas framework does not apply where, for example, a plaintiff is able to produce
direct evidence of discrimination. See Trans World Airlines,Inc. v. Thurston, 469 U. S. Ill, 121.

RESPONSE (3)
In comparing Lilly Ledbetter case to mine, the difference is skin color and opposite
sex which, looking at sex only is currently against my Civil Rights.
Lilly Ledbetter Act restores position of the EEOC each paycheck that delivers
discriminatory compensation is a wrong actionable under the federal EEO statutes,
regardless of when discrimination began.
RESPONSE (4)
Reverse Discrimination:
Reverse Discrimination: When minority has the power with decisions about the
5.

workforce, and directly or indirectly make discriminatory decisions or with policy,
the majority suffers. The Civil Rights Act addressed discrimination causing
minority disparity in the work place. Disparity by majority in the workplace is on
par to that of disparity of minority past. When minority leaders have power over
majority and disregard the rules and laws put in place to alleviate discrimination in
the public sector workforce, they are equally guilty of employee discrimination, but
in the reverse.
RESPONSE (5)

Magistrate Bowman continued oversight and rulings of this case

and did not honor the plaintiffs non-consent entry on forms (attached) on two
separate occasions during Joint Discovery Plan/scheduling.
“When authorized under 28 U.S.C. §636(c), a magistrate judge may, if all
parties consent, conduct a civil action or proceeding, including a jury or nonjury
trial. A record must be made in accordance with 28 U.S.C. §636(c)(5)”. In District
Court, I (Plaintiff) issued non-consent for Magistrate Bowman, twice on forms
during scheduling Case: l:16-cv-01128-MWM-SKB Doc #: 8 Filed: 03/09/17 and
Page: 1 of 6 PAGEID #: 77,1 never gave the Magistrate consent. Magistrate threw
out my Leave of Court to submit new evidence in 2019. The Magistrate facilitated a
Bench Trial De Novo (not sure of date) pushing for Summary Judgment opposed by
me Doc #: 38 Filed: 05/27/20 PAGEID #: 1049 in favor of defendants ignoring issues
of fact and omitting direct evidence for De Novo to District Judge McFarland, all
without notification to me.
6.

Although I, plaintiff, filed objections to Magistrate with responses and
motions and denied her twice on scheduling forms to consent, the Magistrate
continued with rulings throughout this case with some as follows:
The Magistrate gave no notification to plaintiff about changing defendant’s
pleadings to Summary Judgment; repeatedly did not consider direct evidence in this
case, did not recognize City documents as evidence submitted with complaint and
with other motions reiterated with complaint, used a faulty date of last
discrimination incident with EEOC form (error date typed by EEOC from papers in
hand) and Magistrate ruled against Plaintiff for leave of court to submit new
evidence and a motion for Summary Judgment in 2019. There were 40 docket
entries in this case in District Court, and additional dockets in the Court of Appeals
with many showing direct evidence to discrimination.
The Magistrate facilitated a bench trial without notification to plaintiff,
picked out certain docket entries for De Novo and omitted important direct
evidentiary docket entries of City documents submitted by plaintiff. According to a
Court Liaison at mediation, the court was led to believe that the Magistrate read
through all documents and that, in her estimation, Summary Judgment to the
defendants was warranted. If that is the case, the Magistrate deliberately misled
the court by providing only 4 docket entries for the bench trial and for the District
Judge for Case No. l:16-cv-1128: using only Doc 31, Doc 38, Doc 30 and Doc 23,
while relevant direct evidence was also with entries Doc. No. 27 dated 01/28/19 with
exhibits on pages 795-880; Doc #: 13-1 Filed: 07/31/17; Doc 29 had many exhibits
with Exhibit 927 allowing Director's favorites; Exhibit #931 with Personnel Policy &
Procedure (PP&P) for HR liaison position given to Ms. Bruns; and HR Age related
discrimination on page 935 for ADEA Stereotyping (Case: 1:I6-cv-01128- Doc #: 27
7.

Filed: 01/28/19 PAGEID #:812) against EEOC II. Also under ADEA, the matrix HR
used which only has age and ethnicity with no merit listed for HR staff making
transfer and promotional decisions Doc #27 PAGEID #: 796. Doc 33; Doc 34 and
Doc 35. Age and Ethnicity should be in separate programs and not used by HR staff
making decisions.
Discovery from defendants was Null:
Case: l:16-cv-01128-MWM-SKB Doc #: 21 Filed: 10/26/18 PAGEID #:421Plaintiff
issued to Court Motion for Court to Compel Defendants to answer, produce
documents, emails, Video and other forms of communication requested of defendants in
their response to interrogatory questions from Plaintiff.
City Solicitor’s and defendants response: “The Interrogatories, which are copied into
Plaintiffs Motion, are with all due respect, convoluted and at times unintelligible, and seek
almost entirely irrelevant, time-barred and otherwise objectionable information”. I,
Plaintiff, received no discovery from the defendants, motion for Notice to Compel thrown
out and two separate certified Public Information requests to City Solicitor and HR were
ignored against Ohio’s Public Record Requests Act 149.43 DOC 27 PAGEID 795.

8.

MY CASE
My name is Mary Jill Allgeyer. I retired from City service after 21 years
August 1, 2018. In 2010,1 received a Bachelor’s Degree and my name was never
certified for promotions and 50 applications went no further than HR due, in part,
to my age and race. I received excellent performance reviews I was forced to take
promotional tests for advancement when most of my promotional career positions
went to unclassified, outsiders and favorites that never had to sit on promotional
tests or answer to the criteria HR required of me.
HR implemented new Policies in to align workforce to priorities of Diversity,
Inclusion, and Equity that eliminated me form opportunity for my whole career. As
a new policy, HR no longer gives administrative study guides for promotional tests,
which can be used for transparency after grading. Transparency taken away by HR
new policy does not allow for participants to look over their graded tests for errors
in grading or elimination of correct answers when too many prioritized employees
answered wrong. HR pays for companies to put together tests parameters that give
HR more control over who gets promoted to classified Administrative Civil service
positions than in years past. In one HR report, a company noted that the “white
female” employees are underutilized in the workforce. HR has engaged and hired
some outside company personnel whose programs and surveys helped with the
City’s priorities.
Applying my low wages to block eligibility to higher wages and classification,
HR controlled my career path by applying “does not meet” to most of promotional
applications (attached), transfers, and blocking me promotional testing which ended
my career.
This case is relevant to reverse discrimination of the City of Cincinnati
leadership that raises substantial errors with not following Statutes, Rulings, State
laws, Civil Service Commissioner’ rules and the City’s Personal Policy &Procedure
A.

(PP&P) rules with considerations to constitutional laws in connection to the
plaintiffs discrimination (reverse discrimination) the plaintiff has suffered by the
culture of City leadership and lower courts to label me as white skinned and
therefore an unprotected employee with the City and is one of public or great
general interest to well over half of the population of the United States.
On my last week at work July 2018,1 finally confided with two current DOTE
employees, who were former HR staff (one black, one white), about my lawsuit they
both separately told me that I was blackballed over at HR.
I continue to include the HR Director and City Manager to this complaint as
they were paid to perform without disparity to me, failed by blocking my career,
putting unclassified and outside candidates into the my next higher position(s) in
my career path with criteria applied to me, not afforded those employees and
eliminating open positions that I was qualified to receive while directing the
workforce with HR-stated priority to changing the workplace using diversity and
inclusion (excludes white female), and equity (means losses to me).
U.S. Senator Mike Braun states, "To claim Qualified immunity under the Reforming
Qualified Immunity Act, a government employee such as a police officer would have
to prove that there was a statute or court case in the relevant jurisdiction showing his
or her conduct was authorized: a meaningful change that will help law enforcement
and the citizens they protect ”
Changing the workforce priority held by HR and the City Manager will
further divide the classes of employees in the workforce. The City Manager and
Civil Service Commissioners allowed the HR Director to change Personnel Policy
B.

& Procedure to gain control and advance minorities, which caused reverse
discrimination. Before my federal complaint, I had many email communications
to notify the administration of reverse discrimination charges with HR, City
Manager, Mayor’s Office between 2015 and 2016 when I filed with City’s
EEOARB and State EEOC that led to growing retaliation against me in 2016.
These acts continued after I filed the complaint in federal court December 6,
2016. This Case is a Case of Public or Great general Interest and asks
substantial constitutional questions.
Summary judgment was accomplished, in part, by the City’s defendants
reoccurring application to the plaintiff Administrative Remedies. I filed an
EEOC complaint and received Right to Sue September 22, 2016.1 followed with a
Complaint in Federal Court on 12/06/16 with last City discriminatory act
occurring during that month, September 2016. The EEOC manager, from a EEO
paper she took from me, erroneously typed the wrong date for EEOC last
incident. August 28, 2015, was the date I filed an EEO complaint form to the
City of Cincinnati. The regulations provide that civil actions may be filed in an
appropriate federal court: (1) within 90 days of receipt of the final action where
no administrative appeal has been filed; I filed within 75 days after EEOC
complaint. Also stated in Defendants’ Summary Judgment was with the City
Deposition with me as I tried to answer impossible questions on who received the
promotions from the 25 applications I submitted from November 2015 until the
C.

deposition date. According to a City report, the new evidence I tried to submit in
2019 showed problems with hiring and promotional time-lines that are usually
months apart for actual hiring and promotions. HR programs have many process
flaws. Another new problem is with working-out-of class for months and then
civil service commissioners’ promoting the employee permanently and making the
promotional date the retroactive date of 1st day of working out of class months
before. HR gave training months in advance to the favorite employee without
notification to all employees who were eligible for the position for positions.
As an older white female, I was subjected to indirect reverse discrimination
by HR Directors and black City Managers whose main priority of the City is to
change the workforce by promoting diversity stated on websites and in all City
reports. These priorities added disparity to the culture of the City of Cincinnati
organization that are an extension of the International City/County Management
Association (ICMA) policies . Their view and Best Practices to City Managers is
with Diversity, Inclusion, Equity and Sectionals stated in many reports:
https://icma.org/race-equity-and-social justice; https://icma.org/blog-posts/gettingevervone-aboard-equitv-train. This push is to distribute best practices to ensure
the health and welfare of minority to the detriment of white females in local
government.

D.

Reverse Discrimination timeline:
> In 1990 Black HR Director, as shown on personnel forms , gave me 50%
status while working me at 100% in a union position with no benefits for
three years (divorced white female with four children); same HR Director
fired me when I was 42 years of age to give my position to new black
candidate off of an eligible list. This new employee received full benefits and
holiday pay on her first day of work.
> 2000 Reentering City service off of a Civil Service entry level test and I later
bought back my sold three years of retirement funds after losing half of funds
to taxes and costing me triple in wages over many years for replacing;
> Against US Department of Labor 77A, Black Balled status is plainly used by
HR from this point in years 2000-2018 and continues with each pension check
as follows:
•

•

•
•

being classified incorrectly 2000-2018 against O.R.C. 124.04 (E)
Classifications and Compensation rule 4, section 5, (e) (h); Civil Service Rule 4
Classification Section 1: No person shall be employed or regularly assigned to
work under any classification not appropriate to the duties performed. Case:
l:16-cv-01128- Doc#: 27 Filed: 01/28/19 Page: 18 of 98 PAGEID#: 803 .
2000-2018 HR giving me status of “does not meet” eliminating my high level
experience and degrees and not allowing me to sit on low administrative
promotional tests or become candidate to my years of applications : 16-cv01128 Doc#: 27 Filed: 01/28/19 Page: 20 of 98 PAGEID #: 805;
hired in City Manager’s office at; half the salary of those before and after me,
who were black employees Case: l:16-cv-01l28- Doc#: 27 Filed: 01/28/19 Page:
PAGEID #: 797 & Doc #: 27 PAGEID #: 798 ;
put in a new position to City and not studied for proper classification against
Civil Service Rules, Rule 4 Section 5, denying me a fair and equitable
resolution in Police Chiefs office after it was agreed I was working above
classification with low wages, but HR still did not permit me to take a clerk
Typist 3 test while letting a newer employee, black, while in police, skipped
E.

many classifications and took an Admin. Tech and was promoted: l:16-cv-01128
Doc#: 27 PAGEID #: 804;
•
HR hiring retired and current HR employees to lie about duties and
responbilities I performed for years, during my classification study. Case:
l:16-cv-01128 Doc #: 27 PAGEID #: 808;
•
HR Director(s) to the City took away all merit business parameters to degrees
(I received at 49 years old in 2000 and 57 years old in 2010) high experience,
responsibility and excellent performance reviews from promotional
consideration to all my applications and would not let me take higher
administrative tests 2006-2018 while promoting black and younger employees
above me and dropping employees into my promotional career path from
different career paths without consideration to their lower salaries and lower
classifications or promoting new candidates to the City devoid of promotional
criteria of salary and classification used to block me as a candidate for
promotions. I was placed on an eligible list for Supervising Management
Analyst, but did not receive an interview Case: 1:16-cv-01128 Doc #: 27 Filed:
PAGEID #: 861; PAGEID #: 863;
•
no promotional training for 21 years. Ms. Bruns, who was our training
liaison, was the only administrative employee in DOTE to receive promotional
training in my last 11 years of employment;
•
no tuition reimbursements forcing me to pay on student loans for 18 years in
hope of promotions while giving other City employees student tuition
reimbursements. Case: l:16-cv-01128- Doc#: 27 Filed: 01/28/19 PAGEID #:
811
•
20.16 Administrative Promotional Test with 3-parts. Written, computer, and
Structured Interview Panel each worth 33%. I called HR and told staff that,
according to Ohio Revised Code, Interview Panels are only used if there is no
written test, and the panel is only used for Police and Fire with the top three
candidates.
•
After the test was taken, the HR director ended up throwing out one portion of
the test, so Interview panel is worth 50% of grade. I emailed to HR to find out
who interviewed me to explain my low score, but never received information.
There was no transparency to the interview process, the interviewers, or
grading taken by 70 employees in random locations. Against Civil Service
Rule 10 section 5: The identity of all persons taking promotional examinations
shall be concealed from the examiners by use of an identification numbers.
The face-to-face interview by panel eliminated that. This process has never
been used for any administrative tests and was very discretionary. The HR
Director, Ms. Kelly, implemented the interview panel to gain control of
promotions.
•
On HR sheets I received after deposition, with the listing of everyone who took
the 2016 test, my name was deactivated Case: l:16-cv-01128- Doc #: 27
Filed: 01/28/19 PAGEID #: 855;
•
HR Director gave temporary promotion and training to an employee who was
not eligible to receive the position because the position required a degree. This
was an employee favorite with director Doc #: 27 Filed: PAGEID #: 815). I
F.

•

•

•

•

was qualified for the position which did not require classification or salary
parameters as it was unrepresented. The position was without advertisement
or notification to employees. 1 have the Director lying (audio recorded
submitted) stating twice that he thought the promoted employee had a degree
as required in Human Resource Personnel Policy & Procedure 2.10
after my Union Grievance in Police Chief s office working at higher
classification without correct classification and higher wages, HR turned
around and promoted a black employee who took my place, allowing her to
take an administrative Tech test from lower salary as a Clerk Typist 2
classification skipping many steps and classifications while HR used “does not
meet” criteria to block my career path. Similarly situated except I had higher
wages and classification than she.
HR paid for employees to give false statements to my Classification study to
escape promoting me and giving new wages. Later, HR and my department
promoted the girl I trained to an administrative tech one classification higher
than my classification.
Against O.R.C. regulation
With new hiring and promotional policies to follow priorities of City’s

Workforce, the platform was with Diversity, Inclusion & Equity that also
added to disparity of my career path. HR took away promotional merit. New
key policies helped HR control which employees got higher administrative
positions: Eliminating degree requirements, career path & experience
requirements, no transparency with promotional testing, promoting
unclassified, promoting outside candidates, using Director favoritism, no
notification to vacant positions, certifying random names from bigger
departments. Then in 2016, HR eliminated higher administrative promotional
tests and gave exceptional appointments out to Director’s favorites, not
compliant to O.R.C. Civil Service Classifications to Rule 08 Section 3
“exceptional appoints shall not be general in application.” With this new HR
policy to process, there is no way for employees to compare their applications to
G.

final promotions received. This was the theme of the City deposition that the
defense and Magistrate used repeatedly in many motions for Summary
Judgment and RR from the Magistrate to the court.
This case is an accumulation to years of being black balled with HR staff
performing reverse discrimination from the beginning of my City Service as it
hinges from that first act in 1990. The lack of integrity speaks to the culture of
this public entity. I feel that I am entitled to relief due to reverse
discrimination to my
age and race (HR term black balled) as follows:
>
afscme
position.

Hired August 1990 as Clerk typist 3 Civil Service AFSCME

Classified Union position. Received no information about AFSCME. (1) No
Benefits of vacation, sick, holiday, health or life insurance from 1990-1993

Collected
unemployment

unlike the other 6,000 City employees. Black HR Director, Betty Baker,

one check.

controlled my employment put on personnel sheets at part-time. False.
Hired and worked full time. (Received HR Personnel sheets from HR in
2004.) Fired July 1993, at 42 years of age with no prospects, by Ms. Baker
who immediately placed new black candidate in my position with all
benefits on first day of work.
>

October 2000 I re entered City service through an AFSCME

entry test. I Interviewed with City Manager, Shirey, and with Betty Baker
now in City Manager’s office, hired as Clerk Typist 1. Six months in new
H.

the position Riots occurred April 2001. My responsibilities and tasks was
greatly enhanced with National news in office two weeks and with special
meetings all day. Those who followed in the same position were classified as
Administrative Techs at $20,00-$30,000 higher in wages annually. All are
black from 2002-current
After riots, Mayor fired City Manager Shirey and my supervisor was
sent to Sewers. Received an automatic promotion to clerk typist 2.
Called HR to ask for transfer to Police. The position and duties were new to
City and, against O.R.C. rules, was not studied for classification duties or
salary. That is HR’s Director’s responsibility.
Performed administration for the Police Relation Section for the DOJ
Collaborative Agreement for two years as a Clerk Typist 2. Lots of
administrative responsibility and tasks to Collaborative and Police Relations
Section. I filed a union grievance after two years of being underpaid and
Police agreed with my grievance, but did not offer a higher classification or
higher wages and wanted me to sign a settlement for $300.1 did not sign the
settlement as Mr. Baker (black boss) gave me a performance review as
“meets” for a Clerk Typist 2 and was “a slap in the face”. Civil Service
Commissioners continued to hold me back from higher classifications and
sitting on higher administrative tests. HR still used “does not meet” for
stopping my career, a loss of years of higher wages. The Black employee,
I.

who took my place in police, was also a Clerk typist 2, HR allowed her to sit
on Administrative Tech Test, skipping many steps and classifications. When I
retired she was classified as an administrative specialist.
In 2004, took AFSCME Clerk Typist 3 test and came in 8th out of 90,
promoted to Department of Transportation & Engineering (DOTE). HR had no
say on promotion as falls under AFSCME union contract. Worked payroll for 4
years for 190 employees.
In 2004 went to Payroll office and found copies of my 1990-1993 City
checks and printed from magnetic tape.
After I sent a request, the City Payroll clerk emailed me classifications of
those performing payroll and most were of a higher classifications. All received
promotions due to new Payroll software programs in 2000. I requested a
classification study with HR. I filled out forms of all tasks and HR hired back
my retired (8 mo.) boss who Red and said that I did not perform 99% listed
tasks. So again I was not promoted. HR paid her to lie and block my
promotion even though HR has my performance reviews on file that my ex-boss
signed stating those tasks. More years of financial losses. Later, the employee
I trained was promoted.
In 2006,1 went back to college to finish my bachelor’s degree in the Science
of Business and Public Administration. In 2007,1 was allowed to take the
Administrative Tech test and, because of a City retirement incentive for early

J.

retirements, our department and the City lost a lot of administrative
employees. Our department had many openings and I was promoted to Admin.
Tech, for the City Engineer. By 2007-2008, HR eliminated the requirement of
a degree for Administrative Specialist and Senior Administrative Specialist,
which helped the City promote employees who did not earn higher education,
into higher classifications. I graduated with my degree in 2010, and submitted
many applications for promotions, but was told I “did not meet” requirements
to positions I should have easily filled. HR Matrix of employees’ fist only states
race and age. HR has a big turnover in the department after employees get
promoted and transfer out to continue as loyal HR liaisons in Supervising
Management Analysts positions that wages go to six figures.
From 2010 to 2016,1 took many Administrative Specialists Tests but
my name was never certified to go out to departments with vacancies. I also
submitted 25 applications for promotions and transfers from November 2015
to 2018 that, with my degree, experiences and high responsibility, I would
have become an integral part of the City’s administration, but again, I never
got to the interview step. During this time, I was working on special projects,
which, after I set up the program, my work is handed over to someone of a
higher classification. With Retaliation, Ohio law prohibits retaliation against
any person because that person has opposed any unlawful discriminatory
practice, or because that person has made a charge, testified, assisted or
K.

participated in any manner in any investigation, proceeding or hearing. This
law can apply to my Director showing favoritism to an employee, Ms. Bruns,
promoted to the Department’s HR haison position without the required degree
for the position. No notice was posted or went out for the HR Raison position
to qualified department employees. Ms. Bruns was our HR training Raison
and HR, trained her months in advance for the position. No one else in
administration positions received or was offered promotional training from
Ms. Bruns from 2007 - 2017. Favoritism in our department was Rsted as a
problem in the new evidence I submitted in 2019 Doc #34. It was in the
Cincinnati.com , on the City’s website, presented to council 201901588 titled
Presentation -Dote Climate Assessment update, Pg 10-District court Doc #34 PAGEID
1009. Also presented 2019 was an Internal Audit from the City Manager to council
for Discrimination and retaliation.

L.

PROPOSITIONS OF LAW
Laws Against Discrimination
The Ohio Civil Rights Commission enforces Ohio's laws against Discrimination. Its
authority is derived from the Ohio Revised Code Chapter 4112 and Ohio Administrative
Code Chapter 4112
BE IT ENACTED BY THE GENERAL ASSEMBLY OF THE STATE OF OHIO: Section 1
That sections 3314.03 and 3326.11 be amended and sections 3313.6027 and 4113.35 of the
Revised Code be enacted to read as follows: Sec. 3313.6027. (A) As used in this section: (1)
"Divisive concepts" means the concepts that: (a) One nationality, color, ethnicity, race, or sex is
2
inherently superior to another nationality, color, ethnicity, race, or sex
“AFFIRMING the 14th Amendment of the Constitution that we’re equal
under the law.”. Sec. 4113.35. (A) As used in this section: (1) "Divisive concept" has
the same meaning as in section 3313.6027 of the Revised Code. (2) "State agency"
means every organized body, office, or agency established by the laws of the state
for the exercise of any function of state government and includes a state institution
of higher education, the public employees retirement system, the Ohio police and
fire pension fund, the state teachers retirement system, the school employees retirement
system, and the state highway patrol retirement system.............................................................. 2
(B)(1) No state agency shall offer teaching, instruction, or training on divisive concepts to any
employees, contractors, staff members, or any other individual or group or require them to adopt
or believe in divisive concepts.
Proposition 209
State and Federal Constitutions Require Equal Protection. The state and federal constitutions
5
provide all people equal protection

9.

August 28, 2015. That is incorrect and corresponds to papers I filed with the City’s
EEOARB on that date (August 28, 2015). See Case: l:16-cv-01128 Doc #: 3 Filed:
12/22/16 (wrong date clerk error) Page: 5 of 7 PAGEID #: 41.
Case: l:16-cv-01128-MWM-SKB Doc #: 6 Filed: 02/09/17 Page: 1 of 5 PAGEID #: 71
2. Defendants deny the Plaintiff has jurisdiction as described section II of the
Complaint.
8. #: 6 Filed: 02/09/17 Page: 1 of 5 PAGEID #: 71
Defendants admit the allegations in section IV(B) of the Complaint but aver that the
allegations in the EEOC complaint were not timely filed.
Fact:
There was not a latest incidence date to reverse discrimination at EEOC as it was
continuous and worst in 2016 as my complaints states and retaliation against EUSl
Unlawful Discriminatory practices was used.
Case: l:16-cv-01128-MWM-SKB Doc#: 6 Filed: 02/09/17 Page: 1 of 5 PAGEID#: 71
The true date of all forms and evidence in the complaint is December 6, 2016.
Clerk’s office Error with splitting my complaint in half and putting half in docket on
December 6, 2016, day of complaint and the other half on December 22, 2016. All
complaint and evidence was submitted on December 6, 2016.
(incorrect date)
Case: l:16-cv-01128-MWM-SKB Doc#: 3-1 Filed: |l2/22/16Page: 8 of 21 PAGEID #: 51
Plaintiff filed a discrimination complaint with the City and presented to the City’s EEOARB on
November 25, 2015 in front of 8 undisclosed males with one an attorney working in HR. He
made many false statements on the EEOARB report forwarded to the City Manager.
The HR lawyer said that in 1990-1993,1 was working through a contract, which is false, I
was a full time City employee in a union position.
During Discovery I sent Interrogatory questions to defendants for my case against the City
about the EEOARB meeting to find out who was there at the table judging me, but
defendants gave no information. I followed up with a Motion for the court to Compel
discovery, but again Magistrate threw it out
Case: l:16-cv-01128-MWM-SKB Doc#: 12 Filed: 07/05/17 Page: 1 of 13 PAGEID #: 87 City
Solicitor, Ms. Boggs states “The Amended Complaint does not state a claim upon
which relief can be granted because Plaintiff failed to exhaust administrative
remedies and relies upon threadbare recitals of the elements of the claims supported
only by conclusory statements. Plaintiff: False Please see all direct evidence in the
case. EEOC September 22, 2016 and Federal complaint 12/06/2016 (75 days).
Case: l:16-cv-01128-MWM-SKB Doc #: 12 Filed: 07/05/17 Page: 7 of 13 PAGEID #: 93
1. Plaintiff failed to file the claims with the EEOC within 800 days.
10.

Administrative Remedy to EEOC last occurrence to reverse discrimination was
ongoing on date of EEOC filing September 22, 2016 with a fraudulent
promotional test for Administrative Specialist in 2016. I filed a Complaint in
Federal Court on December 6, 2016 within 75 days, well before deadline.
Plaintiffs Response Doc #: 13 Filed: 07/31/17 Page: 1 of 19 PAGEID to 157 to PAGEID
#: 174; Case: l:16-cv-01128-MWM-SKB Doc#: 13-1 Filed: 07/31/17 Page: 1 of 189
PAGEID #: 176 De
EEOC II Discriminatory Practices Are Prohibited by laws Under Title VII, the
ADA, GINA, and the ADEA, it is illegal to discriminate in any aspect of
employment, including:
•

hiring and firing; compensation, assignment, or classification of employees; transfer,
promotion, layoff, or recall; job advertisements; recruitment; testing; use of company
facilities; training and apprenticeship programs; fringe benefits; pay, retirement
plans, and disability leave; or other terms and conditions of employment

XIII. Reasons for Granting the Petition
With the Appellate Court ruling to reverse discrimination of majority whiteskin-race female deemed as unprotected against the Title VII Civil Rights Act, this
ruling will continue to allow a precedence of reverse discrimination of the older
white female employee to go unchecked. As ICMA continues to issue propaganda
with minority priorities of public entities to City and County Managers, white
female’s future for opportunity will remain non-existent in local government. For
years Cincinnati’s local government has performed on a platform of reverse
discrimination to a large portion of the workplace. This case raises substantial
error with local government not following the City’s Statutes, Rulings, Civil Service
Commission rules and the City’s PP&P rules put in place to avoid discrimination in
a public entity workplace where there is no financial bottom line or top line gross
11.

that denotes normal business opportunity for employees. Reverse discrimination is
real and can paralyze the health and welfare of families for years. Majority female
workers have no recourse to fight against discrimination inside the current City
culture. With low wages and no advisories on hand, reverse discrimination is and
will continue to be of public or great general interest to well over half of the
population of the United States and must be recognized for change in the court
system. The court needs to assure equal rights in the workplace are given to all
regardless of race (skin color) to help enlighten local government attorneys to the
forces of employment laws especially in cases of reverse discrimination currently
dominating local government, from top down. The end result will be with unifying
the culture of public entities.

12.

CONCLUSION

The Petition for Writ of Certiorari should be granted.

Respectfully submitted,

Mary JH1 Allgever, Pro Se
Date: September 27, 2021

13.

